BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
State Petitioners and Joint Appendix in 19-1257, Mark

Brnovich, Attorney General of Arizona, et al. v.
Democratic National Committee, et al., 19-1258,
Arizona Republican Party, et al. v. Democratic
National Committee, et al., was sent via Next Day

Service to the U.S. Supreme Court, Next Day and e­
mail service to the following parties listed below, this
30th day of November, 2020:

Marc Erik Elias
Perkins Coie, LLP
700 Thirteenth Street N.W.
Suite 800
Washington, DC 20005-3960
(202) 434-1609
MElias@perkinscoie.com
Counsel for Democratic National Committee, et al.

Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com
Counsel for Arizona Republican Party, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6023
JAmunson@jenner.com
Counsel for Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Joseph A. Kanefield
Chief Deputy and Chief of Staff
Counsel of Record
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
Joe .Kanefield@azag.gov
Counsel for State Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 30, 2020.

Becker Gallag e-r Leg
ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

��

Notary Public
[seal]

hu._ 3 01

dO dO

!Jw&=-

